OIG Audit Report 98-27
Management of the Office of Justice Programs' Regional Information Sharing Systems Program
Report No. 98-27
September 1998
Office of the Inspector General
EXECUTIVE SUMMARY
The first Regional Information Sharing System (RISS) project was established in 1974 to assist state and local law enforcement agencies to identify, target, and remove criminal activity spanning jurisdictional boundaries.  The program is funded through grants administered by the Office of Justice Programs (OJP), Bureau of Justice Assistance (BJA).  The Institute for Intergovernmental Research (IIR) has been awarded a grant annually to provide technical assistance to the RISS program in improving overall operations.
While the program is directed primarily towards state and local law enforcement agencies, federal agencies also participate.  Grant funds received in Fiscal Year (FY) 1996 totaled $14.5 million, of which $13.4 million were for operating costs.  The IIR was awarded $560,000.  The remaining $550,000 was used for the implementation of RISSNET II, an initiative to electronically connect project databases.
Currently, there are six RISS projects serving member agencies in all 50 states, the District of Columbia, Puerto Rico, and the Canadian provinces.  At the time of our audit, about 4,600 agencies participated in the RISS program.  Of the 4,600, about 200 were Department of Justice offices.  Each of the projects serves a distinct geographic area and is staffed with a Director, additional management officials, and other employees.  At the time of the audit, the projects had a combined total of about 183 employees, of which about 37 were field service representatives.  The field service representatives were based in various locations throughout the country.
In brief, we found that RISS can operate more cost-effectively by consolidating overhead and management positions from six locations into one location and by leaving field service representatives intact.  By doing so, OJP could save about $3.2 million annually and still provide local, personalized service to its members.  Savings would primarily result from eliminating unnecessary positions, reducing fringe benefits, and reducing rental of office space.  We also found that the BJA did not effectively monitor the program, resulting in significant overstatement of RISS accomplishments.  In addition, we noted excessive drawdowns of program funds and inappropriate expenditures of $304,590.
The details of our work are contained in the Findings and Recommendations sections of the report.  Our audit objectives, scope, and methodology are contained in Appendix I.